August 29, 2000
Audit Report No. 00-036


Audit of Payments to COMSO, Inc.
Federal Deposit Insurance Corporation                                                                 Office of Audits
Washington, D.C. 20434                                                                    Office of Inspector General




   DATE:                            August 29, 2000

   MEMORANDUM TO:                   Arleas Upton Kea, Director
                                    Division of Administration

                                    Donald C. Demitros, Director
                                    Division of Information Resources Management and
                                    Chief Information Officer


   FROM:                            David H. Loewenstein
                                    Assistant Inspector General

   SUBJECT:                         Audit of Payments to COMSO, Inc. (Audit Report Number 00-036)


   The Office of Inspector General (OIG) has completed an audit of payments made to COMSO, Inc.
   (COMSO). As of August 15, 2000, the FDIC had expended $16.5 million of $20.1 million in funds
   authorized under six open delivery orders with COMSO. This review has identified billing
   allowability issues and similar matters as reported in the Audit of Payments to CIBER, Inc. (audit
   report number 00-021, dated June 2, 2000). We will not include detailed results or recommendations
   on the other matters in this report since FDIC management is already taking corrective action to
   address the issues. During the course of our audit we communicated our concerns and suggestions
   to management to enable more timely consideration of this information. This is one of four ongoing
   OIG audits of the Division of Information Resources Management (DIRM) delivery order-type
   contracts.

   BACKGROUND

   The General Services Administration (GSA) Federal Supply Service (FSS) leverages the
   government’s buying power to help federal agencies save time by acquiring goods and services
   through pre-established contracts. The FDIC used GSA’s pre-established contracts for IT
   services and competitively awarded six delivery orders 1 to COMSO between June 4, 1997 and
   November 6, 1998. COMSO’s contract with GSA (GS-35F-4422G) is effective for the period
   covering January 17, 1997 through January 16, 2002 and dictates experience requirements and
   hourly billing rates by labor category for COMSO personnel.

   COMSO is providing System Development Life Cycle support services through the delivery
   orders for the FDIC's Asset Marketing System, Credit Notation System, Owned Real Estate
   System, Receivership Liability System, and the Local Area Network. The delivery orders also

   1
    Delivery orders are orders for supplies or services placed against an established contract or with government
   sources for supplies.
engaged COMSO to support new and existing systems used by the Division of Administration
(DOA) and the Division of Resolutions and Receiverships.

COMSO’s delivery orders are time and materials-type contracts in that they provide for services
based on direct labor hours at fixed hourly rates plus the cost of any necessary materials.
According to the FDIC Acquisition Policy Manual (APM), time and materials contracts are used
when the Contracting Officer determines that fixed-price contracting (the preferred method) is
not practical. Time and materials contracts make sense when it is difficult to provide a detailed
statement of work or to estimate the price or duration of the time required for contract
performance. The APM states that time and materials contracts should be used with caution
since they provide no positive profit incentive to the contractor for price control or labor
efficiency. The APM further states that the FDIC shall provide the appropriate oversight of
contractor performance to ensure that efficient methods are being used.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the billings submitted by COMSO were
adequately supported and allowable under the terms and conditions of the GSA contract and
FDIC delivery orders. Our audit included 86 invoices that the FDIC paid between
January 1, 1998 and August 31, 1999. These invoices were paid under six delivery orders and
totaled $10,507,577.

The audit methodology included the following:
• Identifying open delivery order contracts as of August 1999.
• Interviewing the DOA Contracting Officer, six DIRM Oversight Managers, COMSO's
   Controller, and COMSO's Director of Finance and Administration.
• Reviewing delivery orders 9700489OEU, 9701106NS2, 9801771NS2, 9800876CTL,
   9800943CJT, and 9800748CVB and the corresponding GSA contract.
• Gathering and examining support for 40 of 86 invoices (47 percent).
• Reviewing the invoices for compliance with contract requirements.
• Analyzing the population for duplicate payments.
• Reviewing FDIC contract monitoring files.
• Reviewing subcontractor files.
• Reviewing COMSO personnel files for 42 employees.
• Determining whether COMSO employees who were working on-site billed off-site rates.
• Testing authorization of key personnel.
• Determining whether background investigations were performed for key personnel.
• Testing the accuracy and completeness of inventory records for computer equipment.
• Testing billing rates for each labor category.
• Analyzing variances between budgeted and actual labor charges for all labor categories.
• Providing DIRM, DOA Acquisition and Corporate Services Branch (ACSB), and COMSO
   staff with preliminary findings to verify factual accuracy, solicit input into the causes of
   findings, and develop workable recommendations.




                                                2
•   Obtaining a management representation letter from COMSO's Director of Finance and
    Administration providing assurance of the truth, accuracy, and completeness of information
    provided by COMSO officials during the course of the audit.

We did not perform audit steps aimed at drawing conclusions on qualitative issues. That is, we did
not examine the quality of the technical services provided to the FDIC by COMSO. We conducted
the audit from October 1999 through June 2000 in accordance with generally accepted government
auditing standards.

RESULTS OF AUDIT

Although COMSO billings generally were supported, they were not always allowable. The
unallowable charges relate to employee qualification issues, excessive subcontractor markups,
and unallowable expenses. As a result, we are questioning $260,259 of the $10.5 million
audited. As mentioned earlier, we also observed certain contract administration issues. These are
summarized in the section below entitled OTHER MATTERS.

COMSO BILLED UNALLOWABLE CHARGES

We identified instances in which COMSO billed unallowable charges related to employee
qualification issues, excessive subcontractor markups, and unallowable expenses. Of the $10.5
million in payments sampled, we question a total of $260,259 as shown in table 1. A discussion
of each type of unallowable charge follows the table.

Table 1: Unallowable Charges
                          Type                                                      Amount Questioned*
 Employee Qualifications Not Commensurate With Billing                                              $248,357
 Rates
 Excessive Subcontractor Markups                                                                      13,261
 Unallowable Expenses                                                                                  3,513
                      Subtotal                                                                      $265,131
                      Less: Overlapping Amounts                                                       (4,872)
                      Total                                                                         $260,259
* Includes overlapping questioned costs totaling $4,872. Overlapping affects each line item of questioned costs.
Source: Analysis of files maintained by DIRM, ACSB, and COMSO

Employee Qualifications Not Commensurate With Billing Rates

The FDIC used the GSA FSS to place six delivery orders with COMSO under GSA contract GS-
35F-4422G. This GSA contract dictates experience requirements and hourly billing rates by labor
category for COMSO personnel. Deviations from these requirements are permitted only with a
modification to the GSA contract.

COMSO billed the FDIC for services performed by 25 employees who did not meet the minimum
level of experience required by both the GSA contract and FDIC delivery orders. A comparison of
the rates billed to rates appropriate for their actual level of experience shows that COMSO overbilled


                                                         3
a total of $248,357 for these 25 employees. In one example, COMSO billed an individual in one
delivery order as a Task Manager (which requires 8 years experience) at an hourly rate of $71.52 and
in another delivery order as a Senior Software Engineer (which requires 6 years experience) at an
hourly rate of $63.31. However, this individual had 4 years of experience and, in both delivery
orders, qualified as an Intermediate Software Engineer (which requires 3 years experience) with an
hourly billing rate of $52.34. We calculated overbillings by multiplying the differences in hourly
rates of $19.18 and $10.97 by the number of hours billed for the respective labor categories. We
performed similar analyses for the other 24 employees whose experience did not meet the labor
categories for hourly rates billed to calculate total overbillings of $248,357.

Excessive Subcontractor Markups

We found that COMSO charged subcontractor markups that exceeded agreed-upon percentages.
The standard FDIC Request for Quotation that the FDIC uses to solicit firms requires bidders to
include the markup they intend to use for subcontractors in the bidders' proposals. During the
negotiation and award process for the selected contractor, the FDIC DOA Contracting Officer is
then required to review this markup as part of the subcontractor approval process. Any changes
to this information must be approved as a contract modification.

For three of the delivery orders under review, COMSO submitted proposals and modifications
that expressly stated the name of the subcontractor firm and the percentage of the markup that
would be applied to subcontractor labor. However, we identified several instances in which
COMSO billed the FDIC using a greater percentage markup than stated in the proposals, as
modified. Using the rates on the subcontractor invoices and the rates COMSO billed the FDIC,
we calculated the percentage of markup on subcontractor rates and compared this to the contract
markup rate. We identified questioned costs totaling $13,261.

Unallowable Expenses

The delivery orders allow COMSO to be reimbursed for local travel if the mileage is greater than
50 miles from the employee's normal work location. COMSO submitted requests for local travel
that did not meet the criteria. As a result, we questioned travel expenses totaling $1,679.
Additionally, the contractor is required to furnish office space, computers, printers, copy
machines, telephones, facsimiles, and office supplies. Overhead costs are included in the hourly
rates. As a result, we questioned charges submitted for various administrative expenses such as
telephone charges, pager services, and copy jobs totaling $1,834 as unallowable. Therefore, we
are questioning costs totaling $3,513 for unallowable expenses.

Recommendation

The Director, DOA, should disallow net payments of $260,259 for unallowable charges.




                                                 4
OTHER MATTERS

As discussed earlier in this report, we identified similar contract administration issues in the Audit of
Payments to CIBER, Inc. (audit report number 00-021, dated June 2, 2000) on which FDIC
management is taking corrective action. Therefore, we are not including detailed results or additional
recommendations in this report. For your information, the following contract administration issues
were identified in this audit:

•   The FDIC effectively lowered employee experience requirements for six labor categories
    without obtaining a GSA contract modification or reduction in hourly billing rates. This
    resulted in the FDIC overpaying COMSO $139,911. We are not questioning these costs
    because they were incurred in compliance with the FDIC’s delivery orders with COMSO.
•   COMSO exceeded the subcontractor percentage level of effort by 19.67 percent and 38
    percent on two of the four delivery orders stating level of effort percentages.
•   Our review of 40 invoices (involving 316 timesheets) identified 56 timesheets with no
    COMSO supervisory approval and 37 other timesheets with no COMSO overtime approval.
    The instances applied to five of the six delivery orders.
•   Six of 18 key personnel were not approved as per the contract requirements.
•   Eleven of 18 key personnel had undergone no background checks.
•   In the budgeted vs. actual labor hours analysis, we noted that:
    ♦ In one delivery order, the average budgeted hourly rate for the base period was $60.44
        and the average actual hourly rate was $65.15. There were seven labor categories with no
        hours budgeted, yet labor hours were billed in six of these labor categories. In one of the
        six labor categories with no hours budgeted (Database Analyst), a total of 3,472 hours
        were billed at a high per hour rate, $90.29 per hour.
    ♦ In another delivery order involving a 10-month period, the average budgeted hourly rate
        was $67.46 and the actual hourly rate was $72.62. During this period, the budgeted hours
        were exceeded by 2,723 hours for a System Architect at $91.03 per hour and 5,805.5
        hours for a Senior Systems Analyst at $75.18 per hour.
    ♦ Sufficient time had not yet elapsed in the remaining four delivery orders to provide a
        meaningful evaluation of the budgeted vs. actual labor hours.

We suggest that DOA and DIRM address the issues listed above.

CORPORATION COMMENTS AND OIG EVALUATION

On August 28, 2000, the Director of DOA provided a written response to the draft report.
Management agreed to the recommendation. The response is presented as Appendix I to this
report.

The written response provided the requisites for a management decision on the recommendation
in the draft report. The response is not summarized because the actions planned are identical to
the recommendation. We did not receive a written response from DIRM; however, subsequent
correspondence with DOA and DIRM officials confirmed that the two divisions are addressing
the contract administration issues in this report through their corrective action efforts for the
CIBER audit report.


                                                   5
Based on the audit work, the OIG will report questioned costs of $260,259 in its Semiannual
Report to the Congress.




                                               6
                                                                                APPENDIX I

         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DCAugust
                                            20429    28, 2000                    Division of Administration




MEMORANDUM TO: David H. Loewenstein
               Assistant Inspector General


FROM:                       Arleas Upton Kea
                            Director, Division of Administration

SUBJECT:                    MANAGEMENT DECISION
                            Draft Report entitled Audit of Payments to COMSO, Inc.


The Division of Administration’s (DOA) Acquisition and Corporate Services Branch (ACSB) has
completed its evaluation of the Office of Inspector General (OIG) Draft Report entitled “Audit of
Payments to COMSO, Inc.”

The objective of this audit was to determine whether the billings submitted to COMSO were
adequately supported and allowable under the terms and conditions of the GSA contract and FDIC
delivery orders. The OIG made one recommendation involving $260,259 in reported questioned
costs the OIG considered unallowable.

Management Decision:

Audit Finding: COMSO Billed Unallowable Charges

Recommendation: Disallow $260,259 in unallowable charges.

Management Response: We agree with the recommendation. DOA will disallow and pursue
recovery of amounts that cannot be adequately supported by the contractor. A decision
memorandum and a demand letter, if necessary, will confirm our completion of corrective action.
We estimate final resolution of this recommendation by November 30, 2000.

If you have any questions concerning the management responses, please contact Deborah Reilly,
Assistant Director, Acquisitions Section, at (202) 942-3552.


cc:    Mike Rubino
       Deborah Reilly
       Dave McDermott
       Mary Rann
       Andrew Nickle
       Tom Harris
       Richard Johnson
       Jesse Barrios


                                                         7
                                                                                                                                APPENDIX II
                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report.

                                                                                     Documentation                      Management
 Rec.                                                            Expected           That Will Confirm      Monetary     Decision: Yes
Number        Corrective Action: Taken or Planned/Status       Completion Date        Final Action         Benefits        or No
           The Associate Director, ACSB, DOA, agreed with
           the recommendation. DOA will disallow and pursue                             Settlement
   1                                                          November 30, 2000                             $260,259         Yes
           recovery of amounts that cannot be adequately                                Agreement
           supported by the contractor.




                                                                       8
